No. 19-1290
In The
The Supreme Court Of The United States

Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent

On Petition For Rehearing Of Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

PETITION FOR REHEARING OF WRIT OF CERTIORARI

Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713

The Honorable Supreme Court Of The United States,
Thank you for this opportunity to petition the Supreme Court for a Rehearing of my
Writ Of Certiorari.
I have been fighting Marvel’s defense attorneys from the Alston & Bird law firm for
the pass 3 and half years, on my own Pro Se, in an attempt to rescue my Owl IP
that Marvel Entertainment stole from me in 2008.
During my case I have provided evidence that 90 percent of what happens in the
2014 Captain America the Winter Soldier happens in my Owl books, most of which
is in chronological order in addition Marvel Entertainment’s 2011-2019 Avenger
movie series is inundated with my Owl IP. I have so many exhibits proving this but
because of the Court’s page and word limitations it would be impossible to send all
the evidence I have.
In the 2014 Captain America the Winter Soldier movie Marvel/Mark Millar split
and steal Owl’s bike jump and Owl’s wings in a preprogrammed V shape.
Owl Knight’s Quickening excerpt: page 34
This is James’s first bike jump attempt, and he was a little nervous
about testing it. He rode his bike to an abandoned airport just outside
town, and went back and forth up and down the landing strip trying to
pump up some courage. When he came around to the beginning of the
runway he pointed his bike down the strip and hits the gas.
Before James knows it he was up to speed. The speedometer reads
170m.p.h. He stands on the seat, and when he lets go of the bars,
PUTSSHHH! The hydraulic seat catapult makes quite a sound as it
sends James soaring into the air. The wings take a
preprogrammed position on James’s back in a V shape. As he
rockets into the air he lets out an excited cry, “Wooooo!” On his way
up he watches as his bike races down the strip by its self only to crash
into and over a chain-fink fence.
2014 Captain America the Winter Soldier movie

1

-Owl using his motorcycle to launch himself into the air is like Captain America
using his motorcycle to launch himself into the air.
-Both Owl and Falcon's wings take a preprogramed V shape.
-Owl yelling, "Wooooo!" rocketing into the air while he watches his motorcycle crash
into a fence on the ground behind him is like Falcon yelling, "Whoo!" rocketing
through the air while he watches a missile hits the Helicarrier behind him.

2

2014 Captain America the Winter Soldier movie Marvel/Mark Millar steal my
nothing, nothing, nothing, something line from 2008 Owl Unlikely Crusader book.
2008 Owl Unlikely Crusader excerpt: Page 2
Using his listening equipment to scan the terrain it sounds like someone going
through all the A.M. radio stations. Nothing...nothing...nothing...then
something, something hostile. Owl listens to something that makes the hairs on
the back of neck stand up.
/

i

$
»

\t couid be'nothing,
k probably is nothing.

\

■

v \ 'J\\
need time
to wake sure it’s nothing.

Sutit it's something?

/
i\

I

■

N .

, j

^

both be damn glad
toose VieWcarriers aren't in the air.

-After the nothing, nothing, nothing, something lines something hostile is
mentioned in both my Owl book and the 2014 Captain America the Winter Soldier
movie.
Because Marvel/Mark Millar have both my 2008 Owl Unlikely Crusader writing
inquiry sent into Marvel and my 2012 Owl Knight’s Quickening Kindle book
Marvel/Mark Millar often jump back and forth from one to the other to steal from
both Owl books.
I rewrote the Nothing/Something line for my 2012 Owl Knight’s Quickening book.
Owl Knight’s Quickening’s excerpt: pages 4, 5
Using the wings like a tripod he steadies his head and starts
surveying the city, scanning for anything out of the ordinary.
The camera sits on top of his right eye and has night vision, heat
vision, the power of a telescope and the ability to zoom in and record

3

anything and everything. On top of his left eye sits a mini satellite dish
made of materials that resonates sound waves that originate miles
away. The sounds are recorded and cataloged by an advance computer
system. The camera and satellite dish appear like two large circles on
James’s face, because of this, eyewitnesses and the press have given
the crime fighter the name Owl. Not the most vicious of creatures but
James carries the name with great pride.
Using his listening equipment to scan the terrain it sounds like
someone going through all the A.M. radio stations. He picks up a
conversation between a man and woman, “Do you want to go to
my place babe?” Owl scans again and listens in on two bouncers
working a door at a local club, “Do you think Sprockets is going cause
any more trouble tonight?”
“You talking about that German dude getting all touchy feely
with the girls earlier?”
“Yea that’s the one.”
“Let him try that s*** again, I’ll choke the kraut out of him.” Both
men laugh at the prospect of Saturday-night violence.
Now that’s not good violence. Two huge jocks beating up a German
guy just because he couldn’t hold his liquor and became a little overly
extroverted... I believe in violence just as much as the next guy. Using
violence in the service of good, saving a rape victim, carjacking victim,
bringing a home invasion to a quick end, and catching the crooks, now
that’s good violence.
Owl scans again, when he hears sounds that make the hairs on the
back of his neck stand up.
2014 Guardians of the Galaxy movie

r

t

c' ;t>
- -£>

£

- ^.1

cl

“l.

o

?

- ..T’a-'lto * *

..

/"7

S

. ym. rj

- ^1

«S- WJ

3
/I

-n.‘

t

MS
£2

A.

JL N

fe-get {\ oVri ^orriethirtg

c

'tt"* t-

** ■MUr. N

Jp

4

c - ::

■'o'S'ofen g>1»

2008 Owl Unlikely Crusader excerpt: page 35
“She’s actually more beautiful in person if you can believe that.”
“Wait; let me picture Rebecca Stewarts in person.” A smile crosses
Brian’s face; he raises his eyebrows and cries out, “Wooooooo
yea...that’s what I’m talking about!” James picks up a rag and
throws it at Brian, “That enough picturing old man.”
-Owl using a computer screen to search for people by zooming in and scanning them
while pontificating about them is like Rocket Raccoon using a computer screen to
search for people by zooming in and scanning them while pontificating about them.
-There is a man and woman hooking up just like in Owl.
-The guy with blonde hair looks like a guy that would be on the Saturday Night
Live Mike Myer’s skit “Sprockets” about a New Wave German show.
-In Owl Sprockets is getting touchy feely with some girls Mark Millar switches it to
the man with the woman who is getting touchy feely.

5

2014 Guardians of the Galaxy movie Marvel/Mark Millar steal Owl’s flashback.
Owl Knight’s Quickening excerpt: page 55
Owl stands up and looks down at Dr. Morikaido dangling by his neck.
The doctor in agony looks up at James as he slowly spins. James wants
to start stomping on the diamond fiber cable shaking the Dr. loose so
he can fall to his death. When a memory from his childhood flashes
before him.
James was a little boy and, had stepped on an ant. His dad grabbed
little James by the arm and asks him, ’What did you just do?”
“I stepped on the ant and killed it ”
‘Why did you do that James?”
“I don't know. ”
“What if somebody or something stepped on you and killed you?” Little
James stood there with a blank face not understanding his father’s
question. His father poses another question to his son, “What if the ant’s
leg was torn off and your leg was torn off, would it hurt the ant any less
than it would you?”
Little James stood silent thinking about the question his father had
asked him, and tried to imagine how much it would hurt to have your
leg torn off... When the answer came to him, little James’s face started
producing tears and screams of a kid that would do anything to turn
back time, and take back his act of killing that ant that laid there
smashed into the cement.
James’s father reaches down and picks up little James and says to
him, “Now don’t you cry you’re going to make your old man cry. Look...
you didn’t know. You’re a smart kid but I can’t expect you to know
everything. You know now?”Being carried by his father, James was
still crying and nods his head yes as the two continue down the road.
2014 movie Guardians of the Galaxy movie
PTC

v
I

' V\J hy •have. vouilggeMffq hting
with the other boys again, baby?

that ain’t done nothing.

6

Smashed it with a stick.

-Owl having a flashback where he is with his late father and an innocent ant is
killed is like Star-lord having a flashback where he is with his late mother and an
innocent frog is killed.
-Owl’s line “smashed into the cement” is like Guardians of the Galaxy’s line
“Smushed it with a stick.”

2015 Avengers: Age of Ultron Marvel/Mark Millar steal Owl’s scanning red laser for
Iron Man.
Owl excerpt: page 33
“Then a red laser came out the top of the man’s helmet. The man interrupts him,
“You’re at the party Carlos Guzman. I’m placing all of you under arrest.” They
laughed at him. The one he called Carlos said, “Hey man you shot a laser into my
eye man. You’re not supposed to shoot lasers into people’s eyes like that man;
you’re going to have to pay.”
“The laser beam is harmless but I am not.”
2015 Avengers: Age of Ultron movie

j.

Sentry mode.

\\

rr. a
*r
-g,_-j

^®V.J.giveme
ft
scan of the room, real quick.

■

He-y, J, give me
an\R scan of the room, real quick.

7

-JKRNAS-. The wall to your loft.

-A scanning red laser coming out of Owl is like a scanning red laser coming out of
the Iron Man suit in 2015 movie Avengers: Age of Ultron.
-The red laser washing over Carlos Guzman in the Owl book is like the red laser
washing over Tony Stark in the 2015 movie Avengers: Age of Ultron.

Exhibit 2 in my case provides proof that the Defendants used my Owl Cover
Drawing like an autopsy diagram as they applied 7 matching wounds depicted in
the Owl Drawings to the Marvel character Captain America in the 2014 Captain
America The Winter Soldier movie is proof positive Marvel/Mark Millar are stealing
Owl IP specifically from me.
The 7 matching wounds happens in a movie with the first look at Marvel’s
revamped character Falcon that act likes and looks strikingly similar to Owl from
the neck down the picture below on the right is 3 Owl bodies and wings with Falcon
heads on them.

8

2014 Captain America the Winter Soldier movie

;

i

••TA

ft, 4

•

After receiving my 2008 Owl submission Marvel/Mark Millar use my contact
information to hack my phone to spy on, taunt and steal IP from me and they don’t
mind admitting it in fact they love to rub my nose in it.
My phone was hijacked by an Algerian and there is an Algerian hijacker in the
Winter Soldier movie.
Using their illegal phone hack Marvel/Mark Millar placed 35 “Null” comments on
my YouTube Videos over a 3 year period. This computer data on this phone hack
and its perpetrators could still be out there should still be out there.
Around 2013 Mark Millar was about to surpass Marvel’s co-founder Stan Lee for TV
and Movie Creative Contributions. Proving this case could be as simple as taking a
look at Mark Millar’s Career and Creative Contributions over the past decade to see
if they are congruent with my claims.
Using their illegal phone hack Marvel/Mark Millar find my 2012 Owl Knight’s
Quickening book available on Amazon and steal it and it’s cover art. The computer
data of Marvel/Mark Millar should still be out there.
Exhibit 1 shows using their illegal phone hack Marvel/Mark Millar find my
published time stamped YouTube videos which are mentioned on my 2012 Owl
Knight’s Quickening book’s advertisement and use them to taunt and threaten me
in the 2014 Winter Soldier movie by dressing the Marvel character Falcon up like I
am dressed in a 2012 YouTube video and by highlighting and maliciously wrecking
into a vehicle like the one I am driving in the same 2012 YouTube video.
I admittedly gave Marvel/Mark Millar plenty to be angry with me.
In 20111 figured out that Marvel/Mark Millar used my 2008 Marvel Owl
submission to make the 2010 movie Kick-Ass.
In another act of revenge Marvel/Mark Millar stole Batman characters from DC
Comics to make the 2010 Kick-Ass movie most likely because in 2007 DC Comics
rejected Mark Millar’s Communist Superman Screenplay “Red Son”.

9

I contacted DC Comic’s Vice President of Legal Jay Kogan and told him that
Marvel/Mark Millar stole DC Comics Batman Characters and inserted them into
my 2008 Marvel Owl Submission to make the 2010 Kick-Ass movie.
I sent Mr. Jay Kogan all of the evidence of the Kick-Ass Copyright Infringement I
had on this matter.
I put all this evidence of Copyright Infringement on a proof disk and sent it to many
people trying to find anyone associated with Marvel/Mark Millar who cared that
Marvel/Mark Millar were stealing my Owl IP to no avail; all I accomplished was
making Marvel/Mark Millar very angry at me and wanting revenge.
I turned in a copy of this proof disk to the State Court and to the Defendant’s
attorneys but I believe the Defendants omitted this Proof Disk evidence when
removing my case from the State Court thus omitting the motive for Marvel/Mark
Millar’s many Taunts/Threats/Admissions of Guilt.
Does the Defense omitting important evidence make the Removal of my case from
the State Court unlawful?
Could the Supreme Court send my case back to the State Court where I could
process serve subpoenas to uncover evidence for a jury trial if the Defense executed
an unlawful removal of my case?
Appendix C & D in my case a Federal Appels Court Chief Judge allowed a copy of
this same Proof Disk to be entered into my case as an amended exhibit then denied
my petition for a Panel Rehearing on the same day probably in the same breath;
how can this be equal justice under the law?
Since 20111 have done everything I could think of to fight Marvel/Mark Millar in
an attempt to rescue my Owl IP from them all the while looking over my shoulder
waiting for them to make good on their many threats to kill me.
Not only did Marvel steal my Owl IP they stole my sense of humor, my sense of
safety, my sense of fair play in the world, my trust in others and all because I made
the mistake of answering their advertisement for comic book submissions in 2008.
I wouldn’t wish what Marvel/Mark Millar did to me on any other American citizen.
Marvel/Mark Millar have systematically dissected my Owl IP and divvied it out to
many of their Marvel Characters and storyline in the 2011-2019 Avenger Series
movies thus nullifying my Owl IP.
Very much like Marvel/Mark Millar’s 35 taunting “Null” comments they posted on
my YouTube videos with their phone hack; Marvel/Mark Millar made my Owl IP
nufi.
As Marvel/Mark Millar reap the rewards of stealing my Owl IP breaking box office
records, winning Academy Awards for their efforts but Marvel/Mark Millar are
using my Owl IP to push some of the most enraging, divisive, dangerous media
messaging I have ever seen.

10

To say I am offended and object to their media messaging is an immense
understatement.
I don’t like how Marvel/Mark Millar uses their Superheroes and racism to
subliminally enrage and program unsuspecting, susceptible audience members like
in the pictures below.
Step 1: Marvel/Mark Millar subject unsuspecting audiences to racist, enraging, and
divisive subliminal imagery.
2014 Captain America the Winter Soldier movie
%\
»» IV: v
\•

**v . 1

rr

r-j

T

at
f ,:Iii nn nfi

9

n i

7T

;
*

ob

>t ns IS

A

-v •

'•$

A Washington DC PoUce car pulls up to African-American Nick Fury’s SUV.

Nick Fury does a double take and notices white policemen seem to profile him.

Want to see my lease?

Nick Furry says, “Want to see my lease?” to show his disgust with the policemen.

11

m

\ m,

i.

I

A

»»

■R 3E *

w-i 48 i'
9 3B - |

»q

■ an
n ■■ i

1! ,I

48 1C i

•s aa i :

.Biol
*B BB I K

ia

ii

r

i

««£•>;%■/ Sjjl
■{

*

Step 2: Marvel/Mark Millar immediately follow Step 1 with an intense subliminal
homicidal police killing fantasy where Marvel Avenger Superhero Nick Fury mows
down Washington DC police officers with his car and machine gun.

.5

:

i
*
%

*

i

*•'

i

■ s/

A

Get me out of here.

12

i
<
l
ai
II

«*
(4
*£
« > :
M >

Repeat Steps 1 & 2 and it looks like to me Marvel & Mark Millar are teaching or
brainwashing American children to be more combative when dealing with the
police.
So is it possible all the riots and civil unrest plaguing our country today due to
Police Brutality is not because the Police are racist or white supremacist but
actually what we are seeing is the by-product of Marvel/Mark Millar’s and other’s
divisive and enraging subliminal programming at work as it exhausts and
overwhelms our country’s police officers with the number of radicalized, combative
individuals the police are coming in contact with on a daily bases?
I believe during the past decade this coordinated effort to spread divisive AntiAmerican propaganda Marvel/Mark Millar have been involved with has made it
nearly impossible for any African-American to feel comfortable in his or her own
country.

13

I don’t like how Marvel/Mark Millar uses their Superheroes to teach children that it
is ok to steal something if you want it more than the person who owns it.
Below Marvel/Mark Millar’s Superhero infuses unsuspecting, susceptible children
with this harmful rational sending them down an illegal, dangerous path for the
past 6 years.
2014 Guardians of the Galaxy movie

tUsee
that \ want to take,

and \t belongs to someone else?

-I believe Marvel/Mark Millar uses the last sentence above, “Do you understand?”,
as a teaching tool evoking children’s minds to ponder Marvel/Mark Millar’s harmful
rational.

14

I don’t like how Marvel/Mark Millar uses slavery to subliminally enrage
unsuspecting audiences while at the same time degrading symbols of American
Government like in the pictures below.
2017 Spider-Man Homecoming movie

k"

,,.,—4- ,

friatwas built by slaves.

,

wasn't built by-

I do not like my Owl IP being used for these harmful purposes so this is another
reason I am here fighting as hard as I can, trying to get my Owl IP back.
I believe that Marvel’s Anti-American media demonstrates their poor character.
I am here begging the court to please hold Marvel Entertainment LLC accountable
for their Willful, Criminal Copyright Infringement on my Owl books, Owl drawings
and their illegal hack on my phone which they have used their own words and they
have used their own media to admit guilt for.
Please tell Marvel that it is not ok to steal submissions sent to them that they asked
for and use the contact information to hack into their victims’ phones to spy on
them, to steal more IP from them and to taunt and threaten them.
Please show Marvel no matter how big of a company you are that this type of illegal
activity victimizing American citizens should not and will not be tolerated in The
United States of America.
Supreme Court Of The United States please let my case move forward.

Respectfully Submitted,
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713

X

15

No. 19-1290

IN THE
SUPREME COURT OF THE UNITED STATES
Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 44.2,1 certify that the petition for rehearing of
my writ of certiorari grounds are limited to intervening circumstances of a
■ substantial or controlling effect or to other substantial grounds not previously
presented.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

OAoUr

tfl

2020

No. 19-1290

IN THE
SUPREME COURT OF THE UNITED STATES
Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 44.1,1 certify that the petition for rehearing of
my writ of certiorari is presented in good faith and not for delay.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

2020

